<html>
<title> - KEEPING KIDS AND CONSUMERS SAFE FROM DANGEROUS PRODUCTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


        KEEPING KIDS AND CONSUMERS SAFE FROM DANGEROUS PRODUCTS

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CONSUMER PROTECTION AND COMMERCE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 13, 2019

                               __________

                           Serial No. 116-46
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                                                
                                 __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-595 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                       
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
            Subcommittee on Consumer Protection and Commerce

                        JAN SCHAKOWSKY, Illinois
                                Chairwoman
KATHY CASTOR, Florida                CATHY McMORRIS RODGERS, Washington
MARC A. VEASEY, Texas                  Ranking Member
ROBIN L. KELLY, Illinois             FRED UPTON, Michigan
TOM O'HALLERAN, Arizona              MICHAEL C. BURGESS, Texas
BEN RAY LUJAN, New Mexico            ROBERT E. LATTA, Ohio
TONY CARDENAS, California, Vice      BRETT GUTHRIE, Kentucky
    Chair                            LARRY BUCSHON, Indiana
LISA BLUNT ROCHESTER, Delaware       RICHARD HUDSON, North Carolina
DARREN SOTO, Florida                 EARL L. ``BUDDY'' CARTER, Georgia
BOBBY L. RUSH, Illinois              GREG GIANFORTE, Montana
DORIS O. MATSUI, California          GREG WALDEN, Oregon (ex officio)
JERRY McNERNEY, California
DEBBIE DINGELL, Michigan
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Jan Schakowsky, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
    Prepared statement...........................................     2
Hon. Cathy McMorris Rodgers, a Representative in Congress from 
  the State of Washington, opening statement.....................     3
    Prepared statement...........................................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     7
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     9
    Prepared statement...........................................    10

                               Witnesses

William Wallace, Manager, Home and Safety Policy, Consumer 
  Reports........................................................    12
    Prepared statement...........................................    14
    Additional material submitted for the record \1\
Crystal Ellis, Founding Member, Parents Against Tip-Overs........    31
    Prepared statement...........................................    33
Christopher Parsons, President, Minnesota Professional Fire 
  Fighters.......................................................    40
    Prepared statement...........................................    42
    Answers to submitted questions...............................   134
Charles A. Samuels, Member, Mintz................................    47
    Prepared statement...........................................    49
    Answers to submitted questions...............................   136

                           Submitted Material

H.R. ___, the Safe Sleep Act of 2019, submitted by Ms. Schakowsky    66
H.R. 1618, the Nicholas and Zachary Burt Carbon Monoxide 
  Poisoning Prevention Act of 2019, submitted by Ms. Schakowsky..    68
H.R. 806, the Portable Fuel Container Safety Act of 2019, 
  submitted by Ms. Schakowsky....................................    76
H.R. 2647, the Safer Occupancy Furniture Flammability Act 
  (SOFFA), submitted by Ms. Schakowsky...........................    83
H.R. 2211, the Stop Tip-overs of Unstable, Risky Dressers on 
  Youth (STURDY) Act, submitted by Ms. Schakowsky................    89
H.R. ___, the Safe Cribs Act of 2019, submitted by Ms. Schakowsky    94
H.R. ___, the Focusing Attention on Safety Transparency and 
  Effective Recalls (FASTER) Act, submitted by Mrs. Rodgers......    96
Statement of the Honorable Mike Thompson, a Representative in 
  Congress from the State of California, submitted by Ms. 
  Schakowsky.....................................................   101
Statement of Torine Creppy, President, Safe Kids Worldwide, June 
  13, 2019, submitted by Ms. Schakowsky..........................   102
Letter of June 13, 2019, from Graham Owens, Director, Legal and 
  Regulatory Policy, National Association of Manufacturers, to 
  Ms. Schakowsky and Mrs. Rodgers, submitted by Ms. Schakowsky...   108

----------

\1\ The information has been retained in committee files and also is 
available at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=109635.
Letter of June 13, 2019, from Jennifer Loesch, Chief Executive 
  Officer, BreathableBaby, LLC, to Ms. Schakowsky and Mrs. 
  Rodgers, submitted by Ms. Schakowsky...........................   110
Statement of American Home Furnishings Alliance, June 13, 2019, 
  submitted by Ms. Schakowsky....................................   113
Article of May 30, 2019, ``Fisher-Price invented a popular baby 
  sleeper without medical safety tests and kept selling it, even 
  as babies died,'' by Todd C. Frankel, Washington Post, 
  submitted by Ms. Schakowsky....................................   119
Letter of June 13, 2019, from Nancy Cowles, et al., Kids In 
  Danger and Consumer Federation of America, to Ms. Schakowsky 
  and Mrs. Rodgers, submitted by Ms. Schakowsky..................   127
Letter of April 11, 2019, from Don Erickson, Chief Executive 
  Officer, Security Industry Association, to Ms. Kuster, 
  submitted by Ms. Kuster........................................   131
Letter of March 20, 2019, from Safe Kids Worldwide to Ms. Kuster 
  and Mr. Carter, submitted by Ms. Kuster........................   132

 
        KEEPING KIDS AND CONSUMERS SAFE FROM DANGEROUS PRODUCTS

                              ----------                              


                        THURSDAY, JUNE 13, 2019

                  House of Representatives,
  Subcommittee on Consumer Protection and Commerce,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:29 a.m., in 
the John D. Dingell Room 2123, Rayburn House Office Building, 
Hon. Jan Schakowsky (chairwoman of the subcommittee) presiding.
    Members present: Representatives Schakowsky, Kelly, 
O'Halleran, Cardenas, Blunt Rochester, Soto, Matsui, McNerney, 
Dingell, Pallone (ex officio), Rodgers (subcommittee ranking 
member), Upton, Burgess, Latta, Guthrie, Bucshon, Hudson, 
Carter, and Walden (ex officio).
    Also present: Representatives Kuster and Griffith.
    Staff present: Alex Chasick, Counsel; Evan Gilbert, Deputy 
Press Secretary; Lisa Goldman, Senior Counsel; Waverly Gordon, 
Deputy Chief Counsel; Alex Hoehn-Saric, Chief Counsel, 
Communications and Consumer Protection; Zach Kahan, Outreach 
and Member Service Coordinator; Alivia Roberts, Press 
Assistant; Chloe Rodriguez, Policy Analyst; Sydney Terry, 
Policy Coordinator; Jordan Davis, Minority Senior Advisor; 
Margaret Tucker Fogarty, Minority Legislative Clerk/Press 
Assistant; Melissa Froelich, Minority Chief Counsel, Consumer 
Protection and Commerce; Peter Kielty, Minority General 
Counsel; and Bijan Koohmaraie, Minority Counsel, Consumer 
Protection and Commerce.

 OPENING STATEMENT OF HON. JAN SCHAKOWSKY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Good morning, everyone. The Subcommittee on 
Consumer Protection and Commerce will now come to order.
    We are going to hopefully move pretty quickly through 
opening statements, because we are going to be called to the 
floor before too long for a long series of votes, and I really 
want to hear our witnesses.
    You know, the American people are often skeptical of what 
does government do for them. And I just feel so proud and so 
lucky to be on this subcommittee, because the kinds of things 
we are talking about today are about saving lives, and we are 
actually going to make a difference in the lives of everyday 
Americans.
    I appreciate so much our witnesses for being here today.
    We are going to consider seven bills that aim at protecting 
consumers and, yes, saving lives. This subcommittee's vice 
chair, for example, Tony Cardenas, introduced the Safe Sleep 
Act of 2019, which would ban inclined sleep products.
    You know, I wrote to the Chairman of the Consumer Product 
Safety Commission, Chairman Buerkle, in April asking to recall 
this Rock 'n Play, which, gratefully, she did. But there are 
other inclined sleep products out there that are a risk, so I 
am very grateful to Congressman Cardenas for introducing this 
important legislation.
    I want to thank Annie Kuster, who has waived onto the 
subcommittee today. She and Buddy Carter, a member of this 
subcommittee, have introduced the Nicholas and Zachary Burt 
Carbon Monoxide Poisoning Act. Those are two brothers who died. 
And we want to prevent that, and this would establish a CPSC 
grant program for States to install carbon monoxide detectors 
in childcare facilities, senior citizen centers, and homes for 
low-income families or seniors.
    Mike Thompson and David Joyce, who, though they don't serve 
on this committee, have introduced an important bill that we 
will be considering, the Portable Fuel Container Safety Act, 
which would direct the Consumer Product Safety Commission to 
establish a mandatory standard for flame-mitigation devices in 
portable fuel containers.
    Doris Matsui and Morgan Griffith introduced the Safer 
Occupancy Furniture Flammability Act, otherwise known as SOFFA, 
which would adopt the California standard for upholstered 
furniture flammability.
    I have introduced two bills. The first is the STURDY Act, 
which would direct the CPSC to enact a mandatory standard to 
prevent furniture tipovers.
    Every hour of every day, common pieces of furniture, like 
clothing storage units, dressers, and chests, tip and tilt and 
fall. And, unfortunately, according to the CPSC, tipovers 
inflict around three injuries per hour in the United States. 
And we are going to hear worse today from Crystal, from Ms. 
Ellis.
    In 2020 alone, over 2 million units of children's products 
faced recall, and nursery furniture was the leading category.
    CPSC rulemaking cannot move fast enough. In the last 10 
years, the CPSC finalized only one mandatory safety standard. 
We certainly need to speed that up. And in the meantime, we 
need to pass legislation.
    The second bill that I have introduced this week, with my 
friends from Chicago, Congresswoman Robin Kelly and Congressman 
Bobby Rush, is the Safe Cribs Act, which would ban crib 
bumpers. The American Academy of Pediatrics safe sleep 
recommends that infants sleep on flat, firm surfaces and does 
not recommend the use of crib bumpers. Families need that right 
now.
    [The prepared statement of Ms. Schakowsky follows:]

               Prepared Statement of Hon. Jan Schakowsky

    Good morning. I am humbled by chairing this subcommittee as 
we discuss legislative solutions that can save lives.
    This is a big deal. Protecting consumers is what drew me to 
public life.
    And today, we are considering 7 bills that aim to protect 
consumers and save lives. I am the lead author of two of these 
bills.
    This subcommittee's vice chair, Tony Cardenas, introduced 
the Safe Sleep Act of 2019, which would ban inclined sleep 
products. I wrote Acting CPSC Chairwoman Buerkle in April, 
asking her to recall the Rock 'n Play, which she did, but there 
are other inclined sleepers that pose a risk. So I am grateful 
to you, my friend, for introducing this important piece of 
legislation. We must get these products off the market and save 
babies' lives.
    I would like to ask for unanimous consent to insert for the 
record this May 30th Washington Post article. (So ordered.)
    Annie Kuster, who has waived onto this subcommittee today, 
and Buddy Carter, a member of this subcommittee, introduced the 
Nicholas and Zachary Burt Carbon Monoxide Poisoning Act. This 
would establish a CPSC grant program for States to install 
carbon monoxide detectors in childcare facilities, senior 
centers, and homes for low-income families or seniors.
    Mike Thompson and David Joyce, who do not serve on this 
committee, introduced the Portable Fuel Safety Container Safety 
Act, which would direct CPSC to establish a mandatory standard 
for flame mitigation devices in portable fuel containers.
    Doris Matsui and Morgan Griffith introduced the Safer 
Occupancy Furniture Flammability Act, which would adopt the 
California standard for upholstered furniture flammability.
    Which brings me to the two pieces of legislation I have 
introduced. The first is the STURDY Act, which would direct 
CPSC to enact a mandatory standard to prevent furniture 
tipovers.
    Every hour, of every day, common pieces of furniture like 
clothing storage units, dressers, and chests tip, tilt, and 
fall. According to the CPSC, tipovers inflict around 3 injuries 
per hour, and cause hundreds of avoidable child fatalities. 
Product experts and parental groups agree: tipover injuries are 
preventable, but current industry standards are not enough.
    In 2018 alone, over 2 million units of children's products 
faced recall, and nursery furniture was the leading category. 
CPSC rulemaking cannot move fast enough. In the last 10 years, 
the CPSC finalized only one mandatory safety standard.
    The second bill, introduced earlier this week with my 
friends from Chicago, Bobby Rush and Robin Kelly, is the Safe 
Cribs Act, which would ban crib bumpers. The American Academy 
of Pediatrics' (AAP) safe sleep recommendations call for 
infants to sleep on a firm, flat surface and does not recommend 
the use of crib bumpers due to risk of suffocation. CPSC, for 
its part, has been working on safety standards for crib bumpers 
since 2012, but it is not clear when, if ever, they will adopt 
a standard. Families need this legislation!
    Finally, Ranking Member Rodgers introduced the FASTER Act 
to enable businesses to recall potentially hazardous products 
via notification to the CPSC. I look forward to hearing more 
about the bill.
    I appreciate the witnesses testifying today on these 
important bills and hope that we can move forward on a 
bipartisan basis in the near future.

    Ms. Schakowsky. So I am going to recognize our ranking 
member, who has introduced an important piece of legislation, 
the FASTER Act. I am sure she will talk about that.
    And I recognize you for 5 minutes.

      OPENING STATEMENT OF HON. CATHY McMORRIS RODGERS, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF WASHINGTON

    Mrs. Rodgers. Thank you, Madam Chair.
    Welcome, everyone, to the Consumer Protection and Commerce 
Subcommittee hearing. Today marks our first legislative 
hearing, and we are here to discuss important issues for 
people's safety.
    I want to thank Chair Schakowsky for her leadership to keep 
the lines of communication open. We have talked a lot about the 
importance of bipartisan work, which is why I was surprised by 
the majority's action leading up to the hearing.
    Regarding my bill, it was my understanding that to speed up 
the Fast-Track process, recall process, that it would be 
considered as a draft, discussion draft, as we continued our 
negotiations.
    However, this week our staff was informed that the E&C will 
not consider staff drafts for legislative hearings. So I was a 
bit bewildered when yesterday the Health Subcommittee did just 
that with the No Surprise Act.
    As all Members can appreciate, finding out hours before a 
deadline that a bill needs to be introduced does not give us 
the time to incorporate the feedback, find bipartisan 
cosponsors, or do any of the proper work required to introduce 
a bill.
    All of that said, I did quickly introduce my bill before 
today's hearing, and I am committed to finding a bipartisan 
consensus to improve it.
    I am glad the majority and I am grateful that the majority 
is including it today for consideration. A bipartisan approach 
moving forward not only gives our solutions their best chance 
to become law, it also gives the public the best chance of 
seeing results that keep them safe.
    The CPSC's mission is to protect people against risk of 
injuries and deaths associated with consumer products. And, 
while we cannot protect everyone from every harm, it is our job 
to address substantial hazards without creating too many 
opportunities for dangerous work-arounds.
    For example, one of the bills today deals with crib 
bumpers, and it is critical that we examine what States have 
done in this space. We don't want to create the risk of parents 
putting blankets or pillows, which pose a suffocating danger, 
back in the crib, because they can't access safe mesh bumpers.
    Earlier this Congress, this subcommittee held an oversight 
hearing with Acting Chair Buerkle and the four Commissioners of 
the CPSC. Chair Buerkle is steadfast in her efforts to advance 
the safety mission of the agency. And once again, I urge my 
Senate colleagues to confirm her.
    The CPSC, though small in size, has a broad jurisdiction 
over more than 15,000 products that are used every day in our 
homes, schools, businesses.
    Recently we have heard concerns with the slow speed of the 
existing Fast-Track Recall Program. In some cases, recalls are 
taking several months. In fact, Mr. Samuels highlights examples 
in his testimony that prove why we should speed things up, 
examples like a 2-week approval process for recall press 
releases, debating the exact phrases on social media posts, or 
requiring toll-free numbers, which may have made sense in the 
1990s when Fast-Track was created, but not anymore.
    The Fast-Track Recall Program is intended to protect people 
by encouraging companies to come forward with dangerous 
products so they can work with an agency. But like many things 
in Washington, DC, Fast-Track is now slow because of an 
outdated bureaucracy. It is a program from 1995 that isn't 
functioning today. As a result, some companies have bypassed it 
completely, leaving the CPSC out of the process. So it is time 
for an update.
    And it is important to maintain the connections between the 
CPSC and good actors in industry, especially when it means 
removing hazardous products from our homes to keep our kids out 
of harm's way.
    That is why I have introduced the Focusing Attention on 
Safety Transparency and Effective Recalls, or the FASTER Act, 
H.R. 3169. My solution will make Fast-Track work in the 21st 
century by giving consumers notice more quickly when a company 
submits a specific recall plan and by learning from the 
company-initiated recall processes at NHTSA and the FDA. It 
allows a business to notify the Commission of a recall and 
directs the agency to promptly issue a notice. No more press 
release delays, no more hangups over toll-free numbers.
    For parents who own dangerous baby cribs and rockers, for 
households with appliances that are a fire risk, for our 
children with toys that are a choking hazard, these 
bureaucratic delays cannot happen.
    The FASTER Act will get these products out of our homes and 
off the shelves as quickly as possible, and will still give the 
Commission the flexibility it needs to ensure a company remedy 
is right and, if necessary, to initiate its own recall, and 
make sure that when something goes wrong, there is a process in 
place for that recall to happen. And I hope that we can work in 
a bipartisan way to find a solution.
    There are many other important issues, such as the portable 
fuel container safety standard. I had the chance to sit down 
with Ms. Ellis on the issue of the tipovers.
    I appreciate everyone being here today, all of the 
witnesses, and look forward to your testimony and working 
through all of these issues.
    And I yield back.
    [The prepared statement of Mrs. Rodgers follows:]

           Prepared Statement of Hon. Cathy McMorris Rodgers

    Welcome to the Consumer Protection and Commerce 
Subcommittee hearing. Today marks our first legislative 
hearing, and we're here to discuss important issues for 
people's safety.
    I want to thank Chair Schakowsky for her leadership to keep 
the lines of communication open.
    We have talked a lot about the importance of bipartisan 
work--which is why I was surprised by the majority's actions 
leading up to this hearing.
    It was my understanding that my bill--to speed up the fast 
track recall process--was to be considered as a discussion 
draft as we continue our negotiations.
    However, this week our staff was informed that E&C will not 
consider staff drafts for legislative hearings.
    So, I was bewildered when yesterday the Health Subcommittee 
did just that with the No Surprise Act.
    As all Members can appreciate, finding out hours before a 
deadline that a bill needs to be introduced does not give us 
time to incorporate feedback, find bipartisan cosponsors, or do 
any of the proper work required to introduce a bill.
    All that said, I did quickly introduce my bill before 
today's hearing and I'm committed to finding bipartisan 
consensus to improve it.
    I am glad the majority is including it for consideration 
today.
    A bipartisan approach moving forward not only gives our 
solutions their best chance to become law, but also gives the 
public the best chance of seeing results that keep them safe.
    The CPSC's mission is to protect people against risks of 
injuries and deaths associated with consumer products.
    While we cannot protect everyone from every harm, it's our 
job to addresssubstantial hazards without creating too many 
opportunities for dangerous work-arounds.
    For example, one of the bills today deals with crib 
bumpers.
    It's critical we examine what States have done in this 
space so we don't create the risk of parents putting blankets 
or pillows--which pose a suffocating danger--back in the crib 
because they can't access safe mesh bumpers.
    Earlier this Congress, this subcommittee held an oversight 
hearing with Acting Chair Buerkle and the four Commissioners of 
the CPSC.
    Chair Buerkle is steadfast in her efforts to advance the 
safety mission of the agency, and I once again urge my Senate 
colleagues to confirm her.
    The CPSC, though small in size, has broad jurisdiction over 
more than 15,000 products that are used every day in our homes, 
schools, and businesses.
    Recently we've heard concerns with the slow speed of the 
existing Fast-Track Recall Program.
    In some cases, recalls are taking several months.
    In fact, Mr. Samuels highlights examples in his testimony 
that prove why we should speed things up.
    Examples like a 2-week approval process for recall press 
releases debating the exact phrases of social media posts and 
requiring toll-free numbers, which may have made sense in the 
'90s when Fast-Track was created--but not anymore.
    The Fast-Track Recall Program is intended to protect people 
by encouragingcompanies to come forward with dangerous products 
so they can work with theagency.
    But like many things in Washington, DC, Fast-Track is now 
slow because of an outdated bureaucracy.
    It's a program from 1995 that isn't functioning today.
    As a result, some companies have bypassed it completely, 
leaving the CPSC out of the process.
    So, it's time for an update.
    It's important to maintain the connections between the CPSC 
and good actors in industry especially when it means removing 
hazardous products from our homes to keep our kids out of 
harm's way.
    That is why I've introduced the Focusing Attention on 
Safety Transparency and Effective Recalls or the FASTER Act, 
H.R. 3169.
    My solution will make Fast-Track work in the 21st century 
by giving consumers notice more quickly when a company submits 
a specific recall plan to the CPSC and by learning from the 
company-initiated recall processes at NHTSA and the FDA.
    It allows a business to notify the Commission of a recall 
and directs the agency to promptly issue a notice.
    No more press release delays, and no more hangups over 
toll-free numbers.
    For parents who own dangerous baby cribs and rockers for 
households with appliances that are a fire risk and for our 
children with toys that are a choking hazard, these 
bureaucratic delays cannot happen.
    The FASTER Act will get these products out of our homes and 
off the shelves as quickly as possible and it will still give 
the Commission the flexibility it needs to ensure a company 
remedy is right and--if necessary--initiate its own recall.
    It makes sure that when something goes wrong there's a 
process in place for recalls to happen and for them to happen 
fast.
    I hope we can work in a bipartisan way on this solution 
that can save lives as well as the many other important issues 
we will discuss today, such as H.R. 806, the Portable Fuel 
Container Safety Act.
    I thank our witnesses for being here today and look forward 
to your testimony.

    Ms. Schakowsky. The gentlelady yields back.
    The Chair now recognizes Mr. Pallone, chairman of the full 
committee, for 5 minutes for his opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chair.
    Two months ago, this subcommittee discussed whether the 
Consumer Product Safety Commission is fulfilling its mission of 
protecting consumers. When CPSC is at its best, it is working 
proactively to eliminate hazards and adopt strong safety 
standards, but as we heard from many of our witnesses, and even 
some Commissioners, CPSC has not been at its best lately.
    To put it simply, we are here today to discuss important 
consumer protection legislation that is necessary because CPSC 
has not done its job. CPSC has let industry set its own rules, 
and the results have been predictably disastrous.
    Fisher-Price designed, marketed, and sold the Rock 'n Play 
Sleeper, a product whose intended use went against the advice 
of pediatricians. It received an exemption from CPSC's 
mandatory safety standards and helped write the voluntary 
standard that it followed instead. A decade later, Fisher-Price 
admitted that it was aware of at least 32 infants who had died 
in the product and agreed to recall all 4.17 million Rock 'n 
Play Sleepers. A similar product from Kids II was recalled as 
well after at least five deaths were reported.
    CPSC knew about the dangers and incidents well before the 
recall, but didn't take action. These recalls were announced 
shortly after this subcommittee scheduled an oversight hearing 
of CPSC, and after CPSC inadvertently provided Consumer Reports 
with details of the infant deaths in these products, which it 
had previously refused to disclose.
    So it should not take a congressional hearing or an 
accidental disclosure of information to get a deadly product 
off the shelves. This is CPSC's job and should be their top 
priority.
    We are also here today because, even when CPSC wants to 
act, its process for issuing standards is so tedious that years 
and years will go by before any standards are in place. Kids 
and consumers simply cannot afford to wait that long. A 
bipartisan majority of the Commission agrees that a mandatory 
standard for furniture tipover is necessary, but getting the 
rule in place would take years due to CPSC's complex rulemaking 
procedures.
    Nearly every safety rule CPSC has issued over the last 
decade for other products used a streamlined process that 
Congress authorized under the bipartisan Consumer Product 
Safety Improvement Act. So today we are considering bills that 
would direct CPSC to follow a similar process to address 
hazards from furniture tipover and portable fuel containers.
    Product safety is not a partisan issue, and I am pleased to 
see that a number of these bills are supported by both 
Democrats and Republicans. Passing these bills will get safety 
standards in place faster and save lives. I look forward to 
working with my colleagues to quickly move them forward.
    But Congress should not have to pass a law telling CPSC to 
address every dangerous product that is on the market. If 
CPSC's authority doesn't allow it to respond quickly and 
completely to new hazards, we should consider revising that 
authority.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    Two months ago, this subcommittee discussed whether the 
Consumer Product Safety Commission is fulfilling its mission of 
protecting consumers. When CPSC is at its best, it is working 
proactively to eliminate hazards and adopt strong safety 
standards. But as we heard from many of our witnesses, and even 
some Commissioners, CPSC has not been at its best lately.
    To put it simply: We are here today to discuss important 
consumer protection legislation that is necessary because CPSC 
has not done its job. CPSC has let industry set its own rules, 
and the results have been predictably disastrous. Fisher-Price 
designed, marketed, and sold the Rock 'n Play Sleeper, a 
product whose intended use went against the advice of 
pediatricians. It received an exemption from CPSC's mandatory 
safety standards and helped write the voluntary standard that 
it followed instead. A decade later, Fisher-Price admitted that 
it was aware of at least 32 infants who had died in the product 
and agreed to recall all 4.7 million Rock 'n Play Sleepers. A 
similar product from Kids II was recalled as well, after at 
least five deaths were reported.
    CPSC knew about the dangers and incidents well before the 
recall but didn't take action. These recalls were announced 
shortly after this subcommittee scheduled an oversight hearing 
of CPSC, and after CPSC inadvertently provided Consumer Reports 
with details of the infant deaths in these products, which it 
had previously refused to disclose. It should not take a 
congressional hearing or an accidental disclosure of 
information to get deadly products off the shelves. This is 
CPSC's job and should be their top priority.
    We are also here today because, even when CPSC wants to 
act, its process for issuing standards is so tedious that years 
and years will go by before any standards are in place. Kids 
and consumers simply cannot afford to wait that long. A 
bipartisan majority of the Commission agrees that a mandatory 
standard for furniture tipover is necessary, but getting a rule 
in place would take years due to CPSC's complex rulemaking 
procedures. Nearly every safety rule CPSC has issued over the 
last decade instead used a streamlined process that Congress 
authorized under the bipartisan Consumer Product Safety 
Improvement Act.
    Today, we are considering bills that would direct CPSC to 
follow a similar process to address hazards from furniture 
tipover and portable fuel containers. Product safety is not a 
partisan issue and I am pleased to see that a number of these 
bills are supported by both Democrats and Republicans. Passing 
these bills will get safety standards in place faster and save 
lives. I look forward to working with my colleagues to quickly 
move them forward.
    But Congress should not have to pass a law telling CPSC to 
address every dangerous product that is on the market. If 
CPSC's authority doesn't allow it to respond quickly and 
completely to new hazards, we should consider revising that 
authority.
    I now would like to yield a minute to Rep. Cardenas.
    I now would like to yield a minute to Rep. Kuster.
    Thank you, and I yield back my time.

    Mr. Pallone. I have a couple minutes left. I would like to 
yield one to Mr. Cardenas, and then the second one to 
Representative Kuster. So we will start with yielding to Mr. 
Cardenas for 1 minute. Oh, he is here.
    Mr. Cardenas. Thank you, Mr. Chairman.
    And I would like to thank Chairwoman Schakowsky for 
bringing this important hearing to order.
    This week, I introduced H.R. 3172, the Safe Sleep For 
Babies Act, which bans the sale of inclined sleep products such 
as the Fisher-Price Rock 'n Play. I introduced this bill 
because babies have been dying unnecessarily since 2009. They 
have been dying because companies decided making money was more 
important than putting infants' lives in danger and because the 
regulatory agency charged with protecting Americans decided to 
be puppets for industry and stood by as more precious lives 
were lost.
    Was the Consumer Product Safety Commission waiting for a 
higher body count before deciding to take action? I don't know. 
There is plenty of blame to go around, but one major failing I 
see is that of the CPSC. And even with two recent recalls, 
these products made by other companies are still available on 
the market.
    As a grandparent, it is just appalling. I think that we 
should be putting children's lives before profits, and we have 
a lot of work to do.
    And with the limited time, I would just like to say thank 
you very much, Mr. Chairman.
    And I yield back.
    Mr. Pallone. And I yield now to Ms. Kuster.
    Ms. Kuster. Thank you, Chairman Pallone and Chairwoman 
Schakowsky, for convening this important hearing today.
    As a mother of two boys, I know there is nothing more 
important than keeping our children and loved ones safe. From a 
young age, we tell children to be careful crossing the street, 
to always wear seatbelts, and to handle sharp objects with 
care.
    Yet there are some threats that our loved ones cannot see. 
One of the most dangerous is carbon monoxide, which is the 
leading cause of accidental poisonous deaths in the United 
States.
    So I appreciate today's hearing discussing my bill, H.R. 
1618, the Zachary and Nicholas Burt Carbon Monoxide Poisoning 
Prevention Act, which I introduced with my Republican colleague 
Representative Buddy Carter. This legislation incentivizes 
States to pass laws requiring carbon monoxide alarms in 
schools, homes, and commercial lodgings, and creates a grant 
program to install carbon monoxide alarms in low-income and 
elderly housing. It will save lives, and to that end, I seek 
unanimous consent to enter into the record letters of support 
for the Carbon Monoxide Prevention Act from the Security 
Industry Association and Safe Kids Worldwide.
    And I yield back my time.
    Ms. Schakowsky. Without objection, we will put that 
information into the record.
    [The information appears at the conclusion of the hearing.]
    Ms. Kuster. Thank you, Madam Chair.
    Ms. Schakowsky. And now I would like to recognize the 
ranking member, Mr. Walden, for his opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Madam Chair. And I want to say good 
morning to you and everyone on the committee and to our 
witnesses today. We appreciate and will benefit from your 
testimony as we discuss these bills in the first legislative 
hearing of the year for this sub.
    This hearing is important for a couple of reasons: first, I 
think the opportunity to discuss the bills under consideration 
and the policies to improve the safety of products and keep 
kids and consumers safe--this is a goal we all share; and 
second, the opportunity to talk directly to the public about 
the risks and how they can make sure that they are taking steps 
to protect themselves and their families.
    I am grateful that Representative Rodgers has introduced 
your bill, Cathy, because, as we will hear again today, the 
Fast-Track Recall Program for good actors who just want to get 
information to their customers faster has slowed down a lot in 
recent years. We really do need to find a solution here, and I 
think we can and will. I understand there is a lot of 
bipartisan support for this proposal, and I look forward to 
hearing from our witnesses about it.
    In April, we heard directly from the CPSC Commissioners and 
a number of interested parties about ongoing product-specific 
issues at the agency, as well as ways in which we can improve 
some of the agency processes. We have heard from many 
stakeholders about concerns of the existing Fast-Track Recall 
Program at the agency.
    It exists, too, as the title of this hearing suggests--to 
keep kids and consumers safe, that is the goal--by removing 
potentially hazardous products from the marketplace as quickly 
and efficiently as possible. And it does not apply to just one 
or two products. It applies to all 15,000 product categories in 
the CPSC's jurisdiction.
    So, as I mentioned earlier, the Fast-Track program has 
slowed greatly for unnecessary layers of bureaucracy that, in 
the examples we will hear today, do not add substantially to 
the benefit of consumers and further delay for weeks, if not 
months, when consumers are told about potentially dangerous 
products. If a company wants to recall a product, shouldn't we 
be encouraging them to work with the CPSC and not go around the 
agency?
    So I think the answer is clearly yes. This is why I 
appreciate the work of Mrs. Rodgers, that she has put into the 
FASTER Act, to solicit comments and ideas on how to improve 
this previously award-winning recall program.
    This bill creates a process that removes the unnecessary 
red tape slowing down recalls today. It mirrors programs that 
are already working at the FDA and at the NHTSA.
    As I indicated earlier, we are committed to working on the 
bill with our colleagues on both sides of the aisle, and I 
think we can find a bipartisan solution to this critical issue.
    So I want to applaud Mrs. Rodgers for her thoughtful 
approach and for helping to advance safety. I urge my 
colleagues on the committee to support H.R. 3169 as we move 
forward.
    One last point I would like to make is to take this 
opportunity to reiterate my strong support for Acting Chair 
Buerkle to be confirmed by the Senate as chair for her new term 
at the CPSC. She is well positioned to lead this critical 
agency and has demonstrated her commitment to protect consumers 
throughout her career of public service. So I am hopeful that 
our Senate colleagues, who I am sure are dialed in to our 
hearing today and hanging on every one of our words, will act 
so we can get a chair there and confirmed.
    And with that, Madam Chair, thanks for your leadership on 
all of these consumer product safety issues over the years. I 
know it is a great passion of yours, and you have saved lives 
as a result of your work, and we want to be partners moving 
forward.
    So, with that, unless anyone else wants the remainder of my 
time, I would be happy to yield back.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Good morning and welcome to the first Consumer Protection 
and Commerce Subcommittee legislative hearing of the year. 
Today, we will discuss several bills--all with the same 
objective: improving consumer safety.
    This hearing is important for two reasons:
    First, the opportunity to discuss the bills under 
consideration and policies to improve the safety of products 
and keep kids and consumers safe.
    And, second, the opportunity to talk directly to the public 
about risks and how they can make sure they are taking steps to 
protect themselves and their families.
    I am grateful that Rep. Rodgers introduced the bill, 
because as we will hear again today, the Fast-Track Recall 
Program--for good actors who just want to get information to 
their customers faster--has slowed down a lot in recent years 
and we should find a solution. I understand there is a lot of 
bipartisan support for this proposal and I look forward to 
hearing from the witnesses.
    In April, we heard directly from the CPSC Commissioners and 
a number of interested parties about ongoing product-specific 
issues at the agency as well as ways in which we can improve 
some of the agency processes.
    We have heard from many stakeholders about concerns with 
the existing Fast-Track Recall Program at the agency. It exists 
to--as the title of this hearing suggests--to keep kids and 
consumers safe--by removing potentially hazardous products from 
the marketplace as quickly and efficiently as possible. And it 
does not apply to just one or two products--it applies to all 
15,000 product categories in the CPSC's jurisdiction.
    As I mentioned earlier, the Fast-Track program has slowed 
greatly from unnecessary layers of bureaucracy that, in the 
examples we will hear today, do not add substantially to 
benefit consumers, and delay for weeks if not months, when 
consumers are told about potentially dangerous products.
    If a company wants to recall a product, shouldn't we be 
encouraging them to work with the CPSC and not go around the 
agency? I think the answer is clearly, yes. This is why I 
appreciate the work Rep. Rodgers has put into the FASTER Act to 
solicit comments and ideas on how to improve this previously 
award-winning recall program.
    This bill creates a process that removes the unnecessary 
red tape slowing down recalls today, and mirrors programs that 
are already working at the FDA and NHTSA. As I indicated 
earlier, we are committed to working on the bill with our 
colleagues across the aisle to hopefully find a good bipartisan 
solution to this critical issue.
    I want to applaud Ms. Rodgers for this thoughtful approach 
and for helping advance safety and I urge all of my colleagues 
on this committee to support H.R. 3169 as we move forward.
    One last point, I would like to take this opportunity to 
reiterate my strong support for Acting Chair Buerkle to be 
confirmed by the Senate as chair and for her new term at the 
CPSC. She is well positioned to lead this critical safety 
agency and has demonstrated her commitment to protect consumers 
throughout her career of public service. I urge my Senate 
colleagues to confirm her as soon as possible.
    Thank you and I yield back.

    Ms. Schakowsky. I thank the gentleman for your kind words, 
and the gentleman yields back.
    I would like to remind all Members that, pursuant to 
committee rules, all Members' written opening statements shall 
be made part of the record.
    And now it is my honor to introduce the witnesses today, 
starting right to left.
    Let me introduce Mr. Will Wallace, the manager, home and 
product policy, from Consumer Reports.
    Ms. Crystal Ellis, founding member of Parents Against Tip-
Overs.
    I especially want to thank you for being here today. It 
would have been your son's seventh birthday, I understand, 
today.
    I want to thank Mr. Chris Parsons, president of the 
Minnesota Professional Fire Fighters Association.
    We thank you so much for traveling here.
    Mr. Charles Samuels, who is a member of Mintz Law Firm.
    Thank you for being here.
    And we absolutely look forward to the testimony.
    At this time, the Chair will now recognize each of the 
witnesses for 5 minutes to provide their opening statements.
    Before we begin, I just want to make sure I explain the 
lighting system. Most of you probably understand. But in front 
of you are a series of lights. The light will initially be 
green at the start of your opening statement. The light will 
turn yellow when you have 1 minute remaining. Please begin to 
wrap up your testimony at that point. The light will turn red 
when your time has expired. Particularly because of the press 
of votes that are coming up, I hope you will abide by that.
    And, again, if you don't mind, I am going to start right to 
left.
    Mr. Wallace, you are recognized for 5 minutes.

STATEMENTS OF WILLIAM WALLACE, MANAGER, HOME AND SAFETY POLICY, 
   CONSUMER REPORTS; CRYSTAL ELLIS, FOUNDING MEMBER, PARENTS 
 AGAINST TIP-OVERS; CHRISTOPHER PARSONS, PRESIDENT, MINNESOTA 
 PROFESSIONAL FIRE FIGHTERS; CHARLES A. SAMUELS, MEMBER, MINTZ

                  STATEMENT OF WILLIAM WALLACE

    Mr. Wallace. Good morning, Chairwoman Schakowsky, Ranking 
Member Rodgers, and members of the subcommittee. Thank you for 
the opportunity to be here on behalf of Consumer Reports, the 
independent nonprofit member organization that works side by 
side with consumers for truth, transparency, and fairness in 
the marketplace.
    The Consumer Product Safety Commission is a critical agency 
with an indispensable public health and safety mission. It 
plays a significant role in protecting U.S. consumers despite 
lacking the appropriations, staff, and authorities it would 
need to carry out all that it is capable of doing.
    But we are here today because the CPSC and many 
manufacturers have failed to protect our children and families. 
They failed 2-year-old Camden Ellis of Snohomish, Washington, 
2-year-old Conner DeLong of Lakeland, Florida, and in total at 
least 206 children since the year 2000 who died under the 
weight of a dresser or other clothing storage furniture, 
despite manufacturers being able to build a more stable dresser 
at the same price point.
    As we document in detail in our written testimony, tipovers 
are a hidden hazard. They send thousands of people to the 
emergency room annually. Yet people often do not know the 
danger, and dressers are particularly deadly.
    CR's thorough 2-year investigation, including safety 
research, testing, reporting, and a survey of consumers, has 
found that industry's current voluntary stability standard is 
inadequate to protect children, and a far stronger, mandatory 
standard is both feasible and necessary.
    The CPSC and industry failed 5-month-old Ezra Overton of 
Arlington, Virginia, and in total at least 37 infants who died 
in inclined sleepers like the Fisher-Price Rock 'n Play, 
marketed as a safe solution for weary parents. That is a 
product that never should have been on the market, but was, 
because of an industry-driven carve-out from the CPSC's strong 
bassinet standard.
    The entire idea of an inclined sleeper conflicts with 
American Academy of Pediatrics safe-sleep recommendations, and 
the product category should be eliminated.
    While we welcomed the recalls this spring that have 
occurred, these particular recalls are not likely to be 
especially effective at actually getting the products out of 
homes.
    The CPSC's steps to protect infants have repeatedly fallen 
short. Only an erroneous data release to CR about which we 
published stories revealing these deaths allowed the public to 
know the breadth and severity of the danger.
    And for too long, the Government and manufacturers have 
failed the victims of crib bumpers, fires involving portable 
fuel containers, carbon monoxide poisoning, and those who are 
injured or killed by other kinds of consumer products.
    We need a CPSC that puts the safety of the American public 
first and is funded and empowered to do so. We need consumer 
products companies with strong safety cultures that know that, 
if they step out of line, they will have to face an active and 
empowered agency.
    But right now, we don't have either. That is why it is so 
important for you to take the opportunity you have before you 
to support the STURDY, Safe Sleep, Safe Cribs, Portable Fuel 
Container Safety, and Carbon Monoxide Poisoning Prevention 
Acts, which will at least show that you put the safety of 
American children and families first.
    You also can reject the FASTER Act in its current form, 
which would further disempower the CPSC and give recalling 
companies more control over life-and-death decisions regarding 
recall implementation.
    As members continue to work on that legislation, in 
particular, we would recommend speaking with those who have 
significant experience from the consumer advocacy and consumer 
safety side with respect to the recall implementation at the 
FDA and at NHTSA. There are some significant concerns with how 
that works.
    Over the longer term, you have the opportunity to reshape 
the CPSC, to eliminate provisions like Section 6(b), which 
could easily have kept many of the inclined sleeper deaths 
hidden if not for the CPSC's data release that occurred in 
error, and to require much more proactive action, to put safety 
first by CPSC leadership and companies alike.
    Finally, while not on the agenda for today, we urge you to 
support efforts to strengthen the appropriations and staff that 
the CPSC receives.
    Your children and families, your constituents, have had 
enough of this failure. Every one of them--all Americans, in 
fact--deserve so much more than they are getting today when it 
comes to the safety of their homes and the products they buy, 
and we look forward to working with you to protect them.
    [The prepared statement of Mr. Wallace follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Additional material submitted by Mr. Wallace has been 
retained in committee files and also is available at https://
docs.house.gov/Committee/Calendar/ByEvent.aspx?EventID=109635.]
    Ms. Schakowsky. Thank you for your testimony.
    Now I introduce Ms. Ellis.
    You are recognized for 5 minutes.

                   STATEMENT OF CRYSTAL ELLIS

    Ms. Ellis. Hello. My name is Crystal Ellis. I am an 
elementary educator, mom, child safety advocate, representing 
Parents Against Tip-Overs, an organization of families like 
mine who have lost a child to furniture tipover.
    I want to begin by saying thank you to each and every one 
of you for allowing me the opportunity to speak today.
    Today is a very difficult day for me. Today would be my son 
Camden Ellis' seventh birthday. But, tragically, he was killed 
5 years ago, on Father's Day, in a furniture tipover incident. 
His three-drawer, just 30-and-three-quarter-inch-tall dresser 
fell as he tried to reach inside to get his clothes, trapping 
his neck between the drawers and suffocating him. He was unable 
to cry for help, and we did not hear it fall.
    His father found him when he went to get him up for 
breakfast. I can still hear my husband's screams.
    After trying my best to revive him with CPR and 4 days in a 
coma at Seattle Children's, we had to say goodbye, donating his 
organs to hopefully save another family from our fate.
    At the time, I thought this was a freak accident, and I had 
no idea that this was a danger in my home. When I discovered 
that he was not only the seventh child to die because of the 
negligence of this particular manufacturer, without a recall, 
or that children were dying at the rate of 1 every 10 days from 
furniture tipovers, I was absolutely devastated.
    How was this possible? I had taken multiple getting-ready-
for-baby classes and childproofed my home. None of the 
professional educators, healthcare providers, mom group 
leaders, or parents had ever told me about the risk of dresser 
tipovers killing my child.
    I know that there are many other parents in this country 
that also have no idea that their dresser is a risk. They 
assume, as I did, that any product that is sold in the United 
States of America has been vetted and tested by their 
Government and would not be sold if it could kill us.
    One death every 10 days is a crisis that needs to be 
immediately addressed. It has already been 5 years since the 
death of my son Camden, over 14 years since the death of Kim 
Amato's daughter, Megan Beck, the earliest death in our group, 
and not enough has been done to keep children safe today. I 
believe a mandatory standard that takes into account real-world 
use by a child with dynamic testing would have saved my son.
    We need the STURDY Act for many reasons. The first is the 
lack of progress in working with manufacturers to get them to 
do the right thing. Consumer advocates and parents have been 
trying for almost 2 decades to strengthen the standard. 
Manufacturers know how to solve this problem right now by 
engineering the tipovers right out of the design.
    PAT members continue to attend meetings and task groups 
ready to dive in to improving the standard, but by multiple 
accounts and measures, this is one of the most contentious 
subcommittees, F15.42, overseen by ASTM. They have stalled for 
years on addressing the furniture tipover issue. They keep 
saying, ``We need more data.'' Their data is our dead and 
injured children. We do not need more data.
    Even with the devastating statistics we already have, we 
also know the data is underreported. Most consumers do not know 
who the CPSC is or the importance of reporting incidents of 
faulty products to them. Every dresser that falls, at the rate 
of one ER visit every 17 minutes, has the potential to be a 
death or a life-altering injury.
    Even with the chairman of the CPSC strongly urging these 
manufacturers to stop stalling and take immediate action to 
increase the standard, there were still dozens of negative 
votes at the last ballot.
    Some manufacturer members of the ASTM subcommittee have 
argued we should make the current voluntary standard mandatory, 
but we know the current standard is not enough. Proof of this 
exists in the IKEA Hemnes dresser, which currently meets 
voluntary tipover standards. It was responsible for the death 
of 2-year-old Conner DeLong in Florida and was seen in a viral 
video falling on 2-year-old twin brothers in Utah, both in 
2017.
    We are also concerned that the creation of a mandatory 
standard from the current weak voluntary standard will make it 
much more difficult to make the standard strong enough to 
protect consumers.
    Secondly, the CPSC, even though they have expressed that 
tipovers are their number-one, highest-priority issue this 
year, are still not using every tool available to them, 
including Section 104 rulemaking and recalling every dresser 
that does not meet the current weak voluntary standard.
    Also, from participating in the ASTM meeting on May 10, I 
strongly feel the manufacturers are not afraid of repercussions 
from the CPSC. Between their small budget and their hands being 
tied by the limitations from Section 6(b) of the Consumer 
Product Safety Act, the manufacturers know they have time to 
stall, time that will result in more deaths of children.
    Today, Parents Against Tip-Overs is here to be a voice for 
our children who have lost theirs, a voice for parents who are 
home today acting as full-time caregivers for their children 
who survived a tipover incident but have been left with life-
altering injuries, and a voice for parents who cannot find 
theirs because they are overwhelmed by the darkness of grief 
and sadness that we have all experienced.
    I would like to make it clear that furniture tipover is not 
a partisan issue. I assure you, furniture falls on both 
Republican and Democratic children equally. Unstable furniture 
does not discriminate.
    Thank you again for allowing me to speak today, and I hope 
you will join me in protecting children and families in this 
country by supporting the STURDY Act.
    [The prepared statement of Ms. Ellis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Schakowsky. Thank you, Ms. Ellis. I think you are an 
American hero, and I appreciate your testimony.
    And now I am happy to introduce Mr. Parsons.
    You are recognized for 5 minutes. Thank you.

                STATEMENT OF CHRISTOPHER PARSONS

    Mr. Parsons. Thank you, Chairwoman Schakowsky, Ranking 
Member McMorris Rodgers, and members of the subcommittee. I am 
Christopher Parsons, president of the Minnesota Professional 
Fire Fighters. I appreciate the opportunity to appear before 
you on behalf of the International Association of Fire 
Fighters, General President Harold Schaitberger, and the over 
316,000 firefighters and emergency medical personnel who 
comprise our union.
    I serve as captain with the St. Paul, Minnesota, Fire 
Department and have seen firsthand the unfortunate results of 
lax consumer safety laws and enforcement in my community. 
Inaction on these issues impacts not only the public, but also 
injures firefighters.
    I testify today to the fact that the Federal Government can 
and should do more to help prevent tragedies and the loss of 
health and life, and offer my full support for SOFFA, the 
Portable Fuel Container Safety Act, and the Nicholas and 
Zachary Burt Carbon Monoxide Poisoning Prevention Act.
    In 2018, firefighters and paramedics responded to nearly 
1.5 million working fires. With each response, firefighters 
were exposed to large amounts of flame retardants. Once thought 
to provide a measure of protection, flame retardants were 
placed in furniture to meet an outdated 44-year-old standard 
and, unfortunately, proved to be toxic when on fire.
    According to numerous scientific studies, firefighters are 
dying from cancer at an alarming rate. Studies by NIOSH and 
others have found that firefighters have an increased risk of 
dying from cancer as compared to the general population.
    We know that, when burned, flame retardants emit cancer-
causing furans and dioxins into the air. A study of 
firefighters' blood after working fires found levels of furans 
and dioxins more than 100 times higher than the public.
    We also know that flame retardants are not only toxic, but 
also ineffective. One study concluded that fires involving 
furniture treated with flame retardants only provided 3 extra 
seconds of escape time while producing twice the amount of 
smoke, 7 times the amount of carbon monoxide, and 80 times the 
amount of soot compared to nontreated furniture. The toxic soup 
inhibits occupants' escape from a burning building, adding 
further risk of injury and death.
    Given their toxicity and suspect value, we see no reason to 
continue the use of toxic flame retardants. The IFF is pleased 
to endorse SOFFA to make California Technical Bulletin 117-2013 
a national standard, replacing an outdated open flame test, 
which led to the use of toxic flame retardants in furniture, 
with a more modern, realistic smolder test.
    The 2013 California standard reduced the presence of flame 
retardants, lessening the harmful impacts suffered by 
firefighters exposed to such chemicals. By passing this bill, 
Congress will extend these protections to firefighters 
nationwide.
    The IFF also supports the committee's efforts to update 
fuel container standards. Each year, approximately 450 burn 
victims will succumb to injuries sustained by a preventible 
phenomenon known as flame jetting. Flame jetting occurs when 
flammable vapors escape from an open nozzle and are ignited, 
creating an explosive flame-thrower-type blaze.
    I have witnessed flame jetting at a fire. The initial fire 
was located on the exterior deck of a house, but the jetting 
flame caused an immediate increase in the fire's intensity. The 
jetting flame from a portable fuel container on the deck shot 
through a doorway into the interior of the house and turned a 
relatively uneventful fire into a prolonged and sustained 
attack, causing significantly more damage than would have been 
expected from the original fire.
    For as little as 25 cents, manufacturers of portable 
flammable liquid containers can add a flame arrestor to prevent 
the rapid release of vapors that cause flame jetting. The 
Portable Fuel Container Safety Act would direct the 
installation of flame arrestors in all containers manufactured 
to hold flammable liquids.
    Finally, the IFF is pleased to support the Nicholas and 
Zachary Burt Memorial Carbon Monoxide Poisoning Prevention Act.
    Each year, carbon monoxide poisoning results in more than 
20,000 emergency room visits and 400 deaths nationwide. In 
1995, Minnesotans Nicholas and Zachary Burt tragically died in 
their beds as a result of carbon monoxide poisoning.
    Like the Rochester firefighters that responded to the 
Burts' tragic incident, I, too, have witnessed the deadly 
effects of carbon monoxide firsthand when responding to a St. 
Paul senior citizen who had passed away from carbon monoxide 
poisoning.
    Fatalities like these are avoidable with the installation 
of an inexpensive working carbon monoxide detector in the home.
    Despite the clear dangers of carbon monoxide, many people 
remain unaware of the need for carbon monoxide detectors. This 
bill aims to change that. It will assist States in delivering 
public education on the dangers of carbon monoxide poisoning 
while simultaneously providing grants to purchase and install 
detectors in the homes of elderly and low-income citizens and 
schools.
    In conclusion, I and the International Association of Fire 
Fighters express our support for these three important public 
safety bills, and I am happy to answer any questions you may 
have. Thank you.
    [The prepared statement of Mr. Parsons follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Schakowsky. Thank you. I think, as first responders, 
that we think all firefighters are heroes as well. So thank 
you.
    And, Mr. Samuels, you are now recognized for 5 minutes.

                STATEMENT OF CHARLES A. SAMUELS

    Mr. Samuels. Chair Schakowsky, Ranking Member Rodgers, and 
members of the subcommittee, thank you for the invitation to 
testify about the CPSC Fast-Track Recall Program. I am Chuck 
Samuels, and I have practiced CPSC law for 35 years.
    The work of this small agency is critical to the safety of 
Americans. The vast majority of industry rightfully considers 
product safety a preeminent value. Companies design and build 
products to be safe. Sometimes their efforts fail and recalls 
are required.
    Thank you, Representative Rodgers, for introducing H.R. 
3169, the FASTER Act, a thoughtful start to improving Fast-
Track. Fast-Track incentivizes companies to quickly remove 
unsafe products from the marketplace and consumers' homes.
    Fast-Track is a significant innovation. Unfortunately, it 
has become ossified. It should not be allowed to languish. It 
should be revitalized.
    To participate in Fast-Track, a business must be prepared 
to implement a corrective action plan, including a consumer-
level recall within 20 working days of submitting a Fast-Track 
report. The first must immediately stop sale and distribution 
of the product. About one-third of corrective actions have been 
Fast-Tracks.
    The program also provides benefits to firms. By removing 
the product from commerce quickly, the potential for injuries 
and product liability claims is reduced and CPSC will not make 
a preliminary determination that the product contains a defect 
that creates a substantial product hazard.
    A Fast-Track corrective action plan includes a remedy, a 
joint news release with CPSC, other customer-level 
communications, communications through the distribution chain, 
and a reverse logistics plan.
    This is a significant amount of work and requires major 
planning by the company and others. It also requires--and here 
is the hangup--timely review and approval by the CPSC. If that 
review is not forthcoming, then all components of a corrective 
action plan languish, and the Fast-Track is no longer fast.
    What I have seen over the years is the process slows down 
considerably because of prolonged examination and back and 
forth, both internal and between staff and firms, regarding the 
components of the recall, and especially the press release or 
other communication. This emphasizes one-size-fits-all over the 
need for quickly getting safety information to consumers.
    Because Fast-Track is no longer fast, some companies are 
bypassing it and opting for the conventional approach to CPSC, 
working with Health Canada more quickly than CPSC, or 
announcing the recall on their own without CPSC.
    This situation is not the fault of any particular CPSC 
administration or staff, but rather the natural 
bureaucratization of a program, and agency concern that it not 
be criticized.
    I have seen delays due to additional information requests, 
long CPSC reviews of data and nonsubstantive back and forth 
about press releases and other communications. Whether through 
lack of resources or internal sign-off requirements, this can 
take weeks.
    I have also experienced significant delays in the recall 
announcement due to additional information requests and 
customer notification letter revisions which were not 
substantive.
    None of these minor agreements are worth lengthy delays. 
The FASTER Act speeds up things. If a company provides the 
required information, then the Commission shall promptly post 
the notice on the Commission's website.
    The bill has safeguards. If the Commission obtains 
information that the remedy provided in a recall is inadequate 
to address the product hazard, it will investigate. This should 
be very rare because companies have an interest in ensuring the 
success of their recalls.
    This legislation is informed by recalls under FDA and 
NHTSA. They do not micromanage recalls, and their approach is 
successful.
    We must make sure that the bill language doesn't result in 
the premature public posting of information about a recall 
before the company is ready to launch. It is frustrating and 
creates anxiety among consumers to learn about a recall and 
then have to wait for lengthy periods before they can receive 
appropriate relief.
    We also need to make sure that we are not providing the 
Commission such great discretion that companies will fear that 
they will have to undertake multiple recalls. This would freeze 
the program.
    The thrust of the FASTER Act is that the necessary 
information can get out to consumers quickly, and consumers can 
act as part of the recall or on their own to protect themselves 
and their families. If the company has proposed a remedy that 
is unsafe, then of course the Commission must have the 
authority to protect the public.
    I hope the subcommittee will use this bill as a basis for 
engagement with all the stakeholders, including the CPSC. 
Undoubtedly, alternative language will be offered, which we 
will need to consider.
    Thank you, and I would be very pleased to answer any 
questions.
    [The prepared statement of Mr. Samuels follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Schakowsky. Thank you so much, Mr. Samuels, and thank 
you for being within the time, too. Appreciate that.
    We have now concluded the witness opening statements for 
our first panel. We now move to Member questions. Each Member 
will have 5 minutes to ask questions of our witnesses. I will 
start by asking some questions.
    Ms. Ellis, again, I just can't thank you enough. It takes 
great courage for you to be here.
    What I wanted to have you elaborate on is, why can't we 
just rely on voluntary standards that are being developed? Two 
parts, both the standard itself and also the voluntary part of 
that. Love your comments.
    Ms. Ellis. Thank you.
    So, to address the issue of voluntary standard: First and 
foremost, the voluntary standard that we have currently is 
still allowing children to be injured and to die. Conner DeLong 
is an example, and the twins in Utah are another example. I am 
so grateful that they are OK, but it shows that the standard is 
not OK.
    Secondly, a voluntary standard, to be honest, isn't even 
wanted by industry. The compliant industry folks want a 
mandatory standard so that other people, other industry 
members, will be held accountable and held to the same 
standard.
    So it is something that we do agree on, which is a 
mandatory standard. We just need to make it tougher than the 
current voluntary standard.
    Ms. Schakowsky. Thank you.
    I know you now have a group. How big is the group of 
parents that have lost children?
    Ms. Ellis. Well, our founding membership started with nine 
parents. However, we are growing, and we continue to grow. And 
there are so many parents that we represent the voice of that 
may never be in a place to advocate, that are too broken by 
this tragedy to use their voice to speak.
    Ms. Schakowsky. Let me ask you this: Have you heard from 
any of these people, both the members of your group and people 
you have talked to, that there was any hint whatsoever that 
this was a dangerous product?
    Ms. Ellis. No one knew. No one knew. And it didn't matter 
what the price point of their dresser was. We have had very 
expensive dressers kill children. We have had cheap dressers 
kill children. It is across all demographics, and no one knew. 
No one knew.
    Ms. Schakowsky. Mr. Wallace, Consumer Reports has done a 
lot of testing on furniture to learn more about how to prevent 
tipovers. Can consumers tell if a dresser will tip over by 
looking at it or even manipulating it in some way?
    Mr. Wallace. No. Consumer Reports' investigation found that 
there is no easy way for consumers to tell whether a dresser is 
more or less likely to tip over just by looking at it.
    Ms. Schakowsky. This week I introduced the Safe Cribs Act, 
which would ban crib bumpers. Crib bumpers, pads, have been 
banned in Chicago since 2011, and for good reason. Crib bumpers 
are inconsistent with the safety standards, as has been talked 
about by the professionals, by the doctors, who for years have 
recommended that babies sleep in baby cribs free of clutter.
    The city council approved the ordinance in response to 
news, investigatory news stories that found Federal regulators 
received reports of babies suffocating for years but failed to 
do anything about it.
    Again, Mr. Wallace, what are your thoughts on banning crib 
bumpers?
    Mr. Wallace. It should happen. I mean, crib bumpers are 
not--they contribute to an unsafe sleep environment. The 
American Academy of Pediatrics is clear in its thorough policy 
statement, developed over the course of years, looking at the 
medical evidence, that a baby should sleep on its back, in its 
own space, on a flat surface, firm and flat surface, that has 
nothing else in there, no added bedding, and the baby in its 
own space.
    And that is why it is critically important not to have 
these products out on the market, because we suspect there is a 
lot of confusion out there. Right now, parents may even think 
that these are necessary for the safety of their babies.
    That is not the case anymore. There used to be--under the 
old crib standard, the gaps between the slats were quite wide. 
Today, products manufactured to the new standard, it is narrow, 
and a baby's head can no longer get entrapped between the slats 
as a result.
    Therefore, these products not only create a danger to 
children, but they are also unnecessary from a safety 
perspective.
    Ms. Schakowsky. You know, we have done a lot with cribs. 
There is no longer--I remember with my kids, the drop-side 
cribs, and so it seems that we need to go a step further here.
    I appreciate all of our witnesses. And now I would like to 
recognize our ranking member, Mrs. Rodgers, for 5 minutes.
    Mrs. Rodgers. Thank you, Madam Chair. And I want to say 
thanks for holding this hearing today so that we can learn and 
dig into these issues more deeply.
    As most of you know, I am an older mom. I have three young 
children now. They are 12, 8, and 5. I remember Brian had some 
friends who had lost a toddler when a bookshelf fell over on 
him, and Brian has been paranoid about the tipover furniture in 
our household.
    Being a parent is the best thing that has happened and also 
the hardest thing that has happened. And I, too, want to just 
say thank you, especially to the parents, for the courage and 
the advocacy, taking what is unimaginable grief and becoming 
advocates so that all of us across this country can learn and 
then take action to make sure that we are doing everything 
possible to protect others.
    So I want to say thank you, Crystal. I want to say thank 
you to Margaret that I see in the audience, and others that are 
advocating so that we can figure out how to get this right.
    Captain Parsons, I want to say thank you for your service 
in highlighting so many issues important to firefighters, and 
also as we try to protect people from the danger of fire.
    Mr. Wallace, on my legislation, on the FASTER Act, I would 
just encourage you to let me know what you think needs to 
happen so that we can make the Fast-Track Recall Program 
actually work. That is the goal of the legislation, and my goal 
is to make it bipartisan so that we can actually get it done.
    Mr. Samuels, your testimony certainly highlighted some 
around the Fast-Track Recall Program. And since that is the 
bill that I am advocating for this morning, I just wanted you 
to take some time and highlight some of the examples on how the 
process has slowed and what has caused the delays.
    Mr. Samuels. Thank you very much.
    Where you have a situation where the company recognizes 
that there must be a recall, then you want to get out to the 
public as soon as possible when you are ready to announce the 
recall. That is the whole genius of the Fast-Track program, 
which was developed by career employees at the CPSC 20-some 
years ago. It was recognized actually by Vice President Gore 
with an innovation award.
    But over time, what has happened is, as with many things in 
a regulatory environment and bureaucracy, they have fallen into 
patterns. The program has become ossified and stultified. They 
want to have exactly the same press release. They want to have 
everybody follow the same path for recall.
    Wording changes in press releases, changes in the 
communications to consumers or to distributors or retailers, 
they have got certain formats. They insist on it. Sometimes 
they ask questions or try and impose requirements when you 
really should be getting out to the public and announcing this 
recall.
    So that is what the problem is, and your bill is a great 
starting point for a discussion about what we can do so that we 
can, when companies are ready, make these announcements as soon 
as possible.
    Mrs. Rodgers. So, to be clear, the CPSC has other avenues 
under current law to investigate companies and conduct recalls, 
right?
    Mr. Samuels. Absolutely.
    Mrs. Rodgers. Right. And this bill would not impact those 
authorities?
    Mr. Samuels. Not at all. The basic requirements for filing 
under Section 15 of the Consumer Product Safety Act is 
untouched. Most recalls probably will continue under the 
conventional process.
    And if a company uses the Fast-Track--even now, but 
certainly under your bill--and their remedy is inadequate, they 
don't do a good job in repairing the product or replacing it 
with a safe product, or they don't accurately describe the 
products that need to be recalled, then CPSC has the authority 
now, and it would have the authority under your bill, to 
require possibly a second recall.
    Mrs. Rodgers. OK. Thank you very much.
    I yield back.
    Ms. Schakowsky. Thank you.
    I now recognize Congresswoman Blunt Rochester for 5 
minutes. Thank you.
    Ms. Blunt Rochester. Thank you, Madam Chairwoman.
    And thank you so much to the panel. A special note of 
thanks to the parents, and especially Ms. Ellis.
    Before coming in, we had the opportunity to talk, and I 
just want to say that on the seventh birthday of Camden, there 
is no better way to honor him than standing up for families and 
children across our country. So I just want to say thank you 
for that, and on behalf of Camden, Happy Birthday.
    When I thought about this issue and listening even to my 
colleagues, you hear the conversation about carbon monoxide 
poisoning. In Delaware, we have an actual father who 
experienced this with his son in a motel, a very famous person 
actually. He was able to advocate and get help on the State 
level to get legislation.
    When we talk about Sudden Infant Death Syndrome, I remember 
as a parent--my children are 30 and 33--but at that time, we 
made bumpers for our baby cribs. We did things that we thought 
were the right thing to do. And I also thought about the 
tipping over, the same thing.
    And, Ms. Ellis, you actually made a comment, and it wasn't 
in my script to ask this question, but you made a comment that 
most--many people don't even know what CPSC is. So they don't 
even know to go and get help or to find out if there is 
something that they need to be protected from.
    My question is to you and to the panel. Can you speak to 
the lack of knowledge about CPSC and the implications, and then 
any recommendations that you would have?
    So maybe we could start with Mr. Wallace and go down.
    Mr. Wallace. Sure. I will just very briefly say that when 
it comes to the tipovers issue, when it comes to--I mean, one 
of the most important steps that anybody can take in their 
homes, if they have a large piece of furniture, like a dresser, 
is to anchor it to the wall.
    But at the same time, we found, through a survey of 
consumers, nationally representative survey, that it is just 
not an easy fix for most consumers. And many of them hadn't 
even heard of it. And so that is an example.
    Ms. Blunt Rochester. Right, right, thank you.
    Ms. Ellis?
    Ms. Ellis. I will speak to the fact that not only did I not 
know what the CPSC was, I just assumed government protected me. 
I didn't know what specific agency. I just figured my 
government protected me.
    And then after Camden died, I spoke to Cathy about, there 
are a lot of government agencies coming in, asking you what you 
did wrong, what is going on. You have police, you have the 
hospital administrators. And I am a law-abiding citizen, but I 
was terrified that my other child was going to be taken away in 
the interim until they could figure it out.
    Then the CPSC sends me a letter saying: We want to know all 
about your accident, give me all of the details. And I went: No 
thanks. Because it is just not--I don't know what your purpose 
is, I have never heard of you, and why would I want to tell one 
more government agency the most terrifying day of my life?
    Ms. Blunt Rochester. Thank you.
    Captain?
    Mr. Parsons. Chairwoman Schakowsky, Congresswoman Blunt 
Rochester, before I got involved in my work on phasing out 
flame retardants in Minnesota, I had very little knowledge of 
the CPSC and the work that it has done. It is extremely 
important work. We all lead busy lives, and we are not always 
able to digest all the information that is out there on 
products.
    But I remember as a child growing up in the 1980s when the 
big smoking initiatives were occurring, through the Surgeon 
General, we cut down on smoking, smoking among children. 
Perhaps we need another initiative along that lines because 
consumer protection is critical for the general public.
    Ms. Blunt Rochester. Thank you.
    And, Mr. Samuels, I have about 40 seconds.
    Mr. Samuels. Well, let me just say that this agency is 
significantly underresourced. That is the fault of the 
Congress. It doesn't have the capabilities to do the 
communications and education that it should. Its budget is 
vastly smaller than the FDA's. And it really needs the support 
of Congress.
    Ms. Blunt Rochester. Thank you so much. I will submit my 
other questions for the record.
    But I want to just thank you all for being here.
    And thank you for the leadership from Chairwoman Schakowsky 
and Mrs. Rodgers. Thank you.
    I yield.
    Ms. Schakowsky. Thank you.
    I just want to tell everyone that is listening now, 
Recalls.gov will connect you to a list of those products that 
have been recalled. And SaferProducts.gov is a place to go 
where you can report if there are products that you have 
experienced as being unsafe. I just wanted to say that.
    And I recognize Mr. Latta for 5 minutes.
    Mr. Latta. Well, thank you, Madam Chair, for calling 
today's hearing.
    And thanks to our witnesses for being with us today.
    And, Ms. Ellis, thanks very much for your testimony.
    If I could ask several of my questions with you, Mr. 
Wallace. While newer crib standards have narrowed the distance 
between slats to prevent head entrapment, I continue to be 
concerned about the limb entrapment for children. To prevent 
limb entrapment, several companies have manufactured and 
marketed mesh crib liners instead of the padded bumpers we are 
familiar with. Several studies looking at mesh crib liners have 
shown that there have been no fatalities or injuries treated in 
emergency departments and no incidents involved in the risk of 
suffocation.
    In the State of Ohio and several other States, lawmakers 
have recognized this data and excluded mesh crib liners from 
legislation that ban crib bumpers. If mesh crib liners are also 
banned, along with padded crib bumpers, my fear is that parents 
are going to start taking matters into their own hands and come 
up with different types of self-improvised solutions to prevent 
that limb entrapment.
    In your written testimony, you state that these products do 
not serve any safety purpose. Did you consider the mesh crib 
liners when you made your determination?
    Mr. Wallace. I am sorry. I couldn't hear the very end.
    Mr. Latta. Did you consider the mesh crib liners when you 
made your determination?
    Mr. Wallace. Padded crib bumpers, we know, are linked to 
suffocation, strangulation, entrapment. Mesh crib liners, there 
is just not a lot of data. They are pretty new products. And I 
think the Ohio law was wise in recognizing that the question 
needed to be revisited after a period of time.
    Right now, it is carved out from the Ohio law, mesh liners, 
but the law charges everybody to come back after, I believe, 2 
years and revisit the state of the evidence.
    Mr. Latta. But now have you conducted any tests or anything 
like that at Consumer Reports on those?
    Mr. Wallace. We have not tested mesh liners or crib bumpers 
that are padded.
    Mr. Latta. And are you intending that in the near future?
    Mr. Wallace. We don't currently have plans. We don't think 
that they are consistent with a safe sleep environment. We 
think that a bare crib is best and that we want to make sure 
not to confuse anybody about that or to send any mixed 
messages. Because it is critical to get that message out, as we 
have since the 1980s, that bare is best. A bare crib, bassinet, 
or play yard is best, and it is critical not to put anything 
extra in there, into the infant's sleep environment.
    Mr. Latta. Thank you.
    I could ask my next question to you, Captain Parsons. 
Thanks very much for everything you do out there.
    I would like to focus on H.R. 806, which is the Portable 
Fuel Container Safety Act, which I am also a cosponsor. And, 
again, this legislation would require that flame-mitigation 
devices or arrestors would be used on portable fuel containers 
for those flammable liquid fuels. It would also allow for a 
voluntary standard to be considered as the consumer product 
safety rule if it meets the intent of the bill and other 
requirements.
    Captain, could you go into more detail and describe the 
different types of flame arrestors that are available in the 
market today?
    Mr. Parsons. Congressman Latta, I do not have information 
on the specific types of flame arrestors. I would be more than 
happy to provide that information to you at a later time.
    Mr. Latta. OK. I would appreciate that.
    And, again, could you--I know you talked about it a little 
bit earlier--could you go again into the detail in discussing 
how the flame arrestors prevent the flames from jetting out?
    Mr. Parsons. Congressman Latta, my understanding is that 
when a flammable liquid container ignites, pressure builds up 
in the container itself, and that then shoots flammable vapors 
out of the opening. This arrestor would keep the vapors from 
escaping through that opening, thus keeping a flame from 
shooting from the opening.
    Mr. Latta. Thank you very much.
    And, Madam Chair, I am going to yield back the balance of 
my time.
    Ms. Schakowsky. Thank you.
    I am now going to recognize Congressman Soto for 5 minutes.
    Let me just announce that on the clock there is just under 
4 minutes for vote. However, 364 people have not voted. So we 
will continue with you, Mr. Soto.
    Mr. Soto. Thank you, Madam Chairwoman, and I am just going 
to make a brief comment, knowing that we have votes pending.
    It wasn't more than 2 weeks ago I had a Florida mom, Meghan 
DeLong, come into my office from the Sarasota area, talking 
about her child Conner, who died due to a dresser that was not 
balanced correctly, and implored me to make sure to support the 
STURDY Act.
    I know that we have also here today, we are joined by 
Crystal Ellis. Thank you for being here and fighting for our 
kids.
    Whether it is that, whether it is the inclined sleeper, 
whether it is crib bumpers or carbon monoxide detectors or so 
many of the other great bills that are up today that we are 
workshopping, there is the sense--and it was said here--that 
people assume that government is doing something about it, but 
that is not always true. People assume that the agencies are 
doing something about it, and that is not always true. But that 
is why we are here today.
    I thank you for your leadership, Madam Chairwoman, on 
having a workshop on these bills, because for every one of 
these, there are hundreds to thousands of stories of everyone 
from infants and young children to our seniors that are put at 
risk and, God forbid, pass away because of negligently built, 
risky products.
    So, when people assume the government is working on it, 
this committee hearing today is evidence that we are, and that 
we are hearing these stories and these cries from across the 
Nation. So thank you for that leadership.
    Ms. Schakowsky. If you would be willing to yield then to--
--
    Mr. Soto. Yes, yield back.
    Ms. Schakowsky [continuing]. To Congresswoman Kelly the 
remainder or part of your time----
    Mr. Soto. Yes, I yield to Congresswoman Kelly.
    Ms. Kelly. Thank you, Rep. And thank you, Chairwoman.
    Ms. Ellis, I want to thank you also for your testimony 
today. I am deeply sorry for the unnecessary loss you and your 
family have endured.
    As you mentioned, the life-threatening hazards of unsafe 
household products, such as dressers or crib bumpers, can 
affect anyone and everyone. And my own district, the city of 
Chicago, as you have heard, has banned the use of crib bumpers, 
making every infant in Chicago safer and giving Chicago parents 
more of a peace of mind.
    However, only a third of my district is actually in the 
city of Chicago. Most live in the south suburbs. And then I 
have a rural portion. So, put in another way, children in two-
thirds of my district are at risk, just like your son. Parents 
in two-thirds of my district are burdened with homework to 
ensure their purchase is safe.
    I wanted to ask a question. When we talk about education, 
all of you have talked about the education, beside, like, 
doctors or parents going to parent groups that are going to 
have children, or in your case, is it firefighters, who should 
educate beyond government? I know we have our responsibility to 
do what we need to do, but what would you recommend so we do 
get to everyday people about what they should do?
    Ms. Ellis. I really am glad to see that the American 
Academy of Pediatrics is backing the STURDY Act. I think I have 
been saying with my pediatrician, who had a tipover story 
herself--she happened to be in the room with her 8-year-old 
when it happened--and I am also working in Washington State 
with Child Profile to add risk of tipover information to the 
packets that get sent to families.
    But sometimes people don't read those. So I think a 
conversation, especially with your pediatrician, when you are 
going in for those well-child checks, hey, have you looked at 
your dresser, have you anchored it to the wall, have you 
considered all of the different hazards in your home, it should 
be part of that conversation.
    Ms. Kelly. And Captain?
    Mr. Parsons. Congresswoman Kelly, when I first started 
working with the flame-retardant issue I was scratching my 
head, why would a firefighter be against flame retardants? And 
the more that I dug into it, the more education that I got from 
my union, the IFF, and other colleagues in other States, the 
issue was very clear and very present in all of our lives. As 
firefighters, we were all affected.
    So, as president of the Minnesota State Association, we 
took it upon ourselves to educate our firefighters in the 
State, because firefighters will listen to other firefighters. 
So that is how we tackled that.
    As far as consumer safety products, perhaps putting more of 
an onus on manufacturers and retailers to get it on the 
packaging. You know, you can't buy cigarettes without seeing 
that Surgeon General's warning front and center. So perhaps 
something like that to where it is in everybody's mind.
    Thank you.
    Ms. Kelly. I yield back.
    And thank you, Chairwoman, for your vigilance.
    Ms. Schakowsky. Mr. O'Halleran, there are still 270 people 
that have not voted yet. Not that I want to promote delinquency 
when it comes to voting, but I wondered if you had something 
short that you wanted to present.
    Mr. O'Halleran. Thank you, Madam Chair. It is short.
    As a former first responder, a police officer, Captain, we 
have seen a lot of deaths, some preventable, some accidental. 
Ms. Ellis' case, it was preventable. In many cases of young 
children dying, it is preventable. And what I heard, a common 
theme here today is that the action that there is by agencies 
is too slow. The education process is needed to be gotten to a 
higher level.
    Mr. Samuels, you clearly indicated that the agency is 
underfunded, vastly underfunded. I believe it is, along with 
many other agencies that address the needs of the safety of our 
citizens. And there is a need.
    Ms. Ellis, you said there is a need to do more.
    It is critical that we do more, and it is also critical 
that Congress looks itself in the mirror and says, ``We need to 
do more.''
    This idea that people look at agencies and say it is the 
agency's fault--the agency is only going to be as good as the 
people it hires, the supervision, and the amount of funding we 
give it to be able to do its mission.
    And so I am sorry, Ms. Ellis, that you have to be here 
today, but thank you for what you do.
    When it comes to education, we should understand that we 
are all, all of us are involved. I have three young 
grandchildren, a fourth one that is a little older. And when we 
go into the home, we always check to see if the straps are on, 
if the sockets are taken care of. Our children are too precious 
to us all. And if you have seen the trauma that the captain and 
I and others have seen, you can understand the relevance of 
making sure we get this done right.
    Thank you very much.
    Ms. Schakowsky. Thank you.
    Let me close by saying, again, to thank all the witnesses. 
There may be others who wanted to come back, but we are 
probably going to be on the floor for about 2\1/2\ hours. So I 
wanted to thank you for being here.
    I want to put in the record a statement from Representative 
Mike Thompson, a statement from Safe Kids Worldwide president, 
a letter from the National Association of Manufacturers, a 
letter from BreathableBaby, LLC, a letter from the American 
Home Furnishings Alliance, an article from The Washington Post 
regarding inclined sleepers, a letter from Kids in Danger and 
the Consumer Federation of America, a letter from the Security 
Industry Association, a letter from Safe Kids Worldwide.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Schakowsky. And I want to remind Members that, pursuant 
to committee rules, they have 10 business days to submit 
additional questions for the record, to be answered by 
witnesses who have appeared. I want to ask each witness to 
respond promptly to any such questions that may arise.
    And just a final, huge thank you. What you are doing today 
is saving lives.
    And with that, the subcommittee is adjourned.
    [Whereupon, at 11:44 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre></body></html>
